<html>
<title> - AMERICA'S AGING WORKFORCE: OPPORTUNITIES AND CHALLENGES</title>
<body><pre>[Senate Hearing 115-679]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-679

        AMERICA'S AGING WORKFORCE: OPPORTUNITIES AND CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                       SPECIAL COMMITTEE ON AGING

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION
                               __________

                             WASHINGTON, DC
                               __________

                            DECEMBER 6, 2017
                               __________

                           Serial No. 115-12

         Printed for the use of the Special Committee on Aging
         
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         

        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
31-487 PDF                 WASHINGTON : 2019         



                       SPECIAL COMMITTEE ON AGING

                   SUSAN M. COLLINS, Maine, Chairman

ORRIN G. HATCH, Utah                 ROBERT P. CASEY, JR., Pennsylvania
JEFF FLAKE, Arizona                  BILL NELSON, Florida
TIM SCOTT, South Carolina            SHELDON WHITEHOUSE, Rhode Island
THOM TILLIS, North Carolina          KIRSTEN E. GILLIBRAND, New York
BOB CORKER, Tennessee                RICHARD BLUMENTHAL, Connecticut
RICHARD BURR, North Carolina         JOE DONNELLY, Indiana
MARCO RUBIO, Florida                 ELIZABETH WARREN, Massachusetts
DEB FISCHER, Nebraska                CATHERINE CORTEZ MASTO, Nevada
                              ----------                              
                 Kevin Kelley, Majority Staff Director
                  Kate Mevis, Minority Staff Director



                                CONTENTS

                              ----------                              

                                                                   Page

Opening Statement of Chairman Susan M. Collins...................     1
Statement of Ranking Member Robert P. Casey, Jr..................     2

                           PANEL OF WITNESSES

Laurie McCann, M.S., J.D., Senior Attorney, AARP Foundation, 
  Washington, DC.................................................     5
Fernan R. Cepero, MA, MS, PHR, SHRM-CP, Chief Human Resources 
  Officer and Chief Diversity Officer, The YMCA of Greater 
  Rochester, Rochester, NY, on behalf of the Society for Human 
  Resource Management............................................     6
Ralph Jellison, Retrained Manufacturing Employee, Orland, ME.....     8
Lisa Motta, Retrained Human Resources Employee, Pittsburgh, PA...    10

                                APPENDIX
        Prepared Witness Statements and Questions for the Record

Laurie McCann, M.S., J.D., Senior Attorney, AARP Foundation, 
  Washington, DC.................................................    26
    Questions submitted for Laurie McCann........................    35
Fernan R. Cepero, MA, MS, PHR, SHRM-CP, Chief Human Resources 
  Officer and Chief Diversity Officer, The YMCA of Greater 
  Rochester, Rochester, NY, on behalf of the Society for Human 
  Resource Management............................................    39
Ralph Jellison, Retrained Manufacturing Employee, Orland, ME.....    47
Lisa Motta, Retrained Human Resources Employee, Pittsburgh, PA...    48
    Questions submitted for Lisa Motta...........................    49

                  Additional Statements for the Record

Labor Force Participation Rates, Chart...........................    52
American Association of Retired Persons (AARP)...................    53
Center for Excellence for Assisted Leaving (CEAL)................    60
Philadelphia Corporation for Aging (PCA).........................    61

 
        AMERICA'S AGING WORKFORCE: OPPORTUNITIES AND CHALLENGES

                              ----------                              


                      WEDNESDAY, DECEMBER 6, 2017

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room 562, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Fischer, Casey, Nelson, and 
Cortez Masto.

    OPENING STATEMENT OF SENATOR SUSAN M. COLLINS, CHAIRMAN

    The Chairman. The hearing will come to order. Good morning.
    America's work force is growing older. In fact, the number 
of older workers is growing at a rate that outpaces the overall 
growth of the Nation's labor force, as those of you who can see 
the chart that we have put up can tell. In the year 2000, under 
13 percent of those over age 65 were working. By 2016, the 
participation rate increased to nearly 19 percent.
    [The chart is in the Appendix, page 52.]
    Today the Committee is releasing its annual report.
    This year, we examined America's aging work force and how 
employers are responding to this unprecedented phenomenon.
    While the labor force, as a whole, is projected to grow by 
an average of just 0.6 percent per year between 2016 and 2026, 
the number of workers ages 65 to 74 is projected to grow by 
more than four percent annually, and the number of workers aged 
75 and above is projected to grow by nearly seven percent 
annually.
    America needs our older workers. Many older workers are 
taking increasingly diverse paths to retirement. Fewer older 
workers are transitioning directly from full-time work to full-
time retirement. Instead, many employees prefer to transition 
to part-time positions with their current employer or move into 
a second career or start their own business.
    Nevertheless, many aging workers experience unique 
challenges. Too many workers cannot transition out of the labor 
force in the ways that I just described. Age discrimination, 
managing health conditions, balancing family caregiving 
responsibilities with work, and preparing financially for 
retirement are prominent challenges faced by aging workers.
    To respond to those challenges, some employers are making 
exemplary efforts to meet the needs of their older employees. 
Leading employers like L.L. Bean, which is headquartered in 
Maine, are instituting policies and program such as flexible 
schedules, family caregiving information and referral services, 
and retirement planning. Others are providing ergonomic office 
designs and changing cultures to welcome workers across the 
spectrum of age and disability levels.
    Several organizations are supporting our aging work force. 
For example, many of our Nation's community colleges offer 
education and training programs that are geared at helping the 
older workers maintain and enhance their skills, and thus 
increase their value to the work force. These programs also 
help older individuals find work, often by linking with local 
employers through tuition assistance and internship programs.
    I have seen, in Maine, how the Trade Adjustment Assistance 
Program has been invaluable in helping a lot of older workers 
who have lost long-time jobs at paper mills and other 
businesses retrain for new employment. And that is the story 
that we will hear today from one of my constituents, Ralph 
Jellison. After losing his long-time job and steady paycheck, 
at age 52 Ralph faced the daunting task of starting over. His 
decision to participate in a job retraining program at Eastern 
Maine Community College opened up a whole new world of 
possibilities, and he has really taken advantage of that.
    We will also hear from policy experts about how to best 
advance best practices and policies to keep pace with an older 
work force. The aging of our population has transformed our 
economy in so many ways. As older Americans enter and remain in 
the work force in record numbers, they provide skills, 
judgment, and experiences that are often unmatched: a work 
ethic and principles that can be exemplary, a vision that is 
uniquely informed by the past to frame the future.
    Research shows that meaningful work well into older ages is 
also linked with improved health and well-being. This silver 
trend is one to celebrate. Both employers and employees benefit 
as Americans are choosing to work longer.
    I am now delighted to turn to our Ranking Member, Senator 
Casey, for his opening statement.

  OPENING STATEMENT OF SENATOR ROBERT P. CASEY, JR., RANKING 
                             MEMBER

    Senator Casey. Thank you, Madam Chairman for your 
leadership on these issues and thanks for gathering us here 
today. I am also pleased that today the Committee's 2017 annual 
report tackles this important subject matter.
    In 2006, workers 55 years of age and older made up 17 
percent of the American work force. That 17 percent is now 22 
percent. It will go to 25 percent in 2026. So in less than a 
decade, one in every four workers in the United States of 
America is 55 years of age or older.
    This is already true in my home State of Pennsylvania, 
which is home to over 1.6 million workers age 55 and older. The 
country's demographics are indeed changing. Americans are 
staying in the work force longer and working to older ages. 
Americans ages 75 and above are now twice as likely to be in 
the labor force as they were just 30 years ago.
    So our economy is evolving. Some Americans are working 
longer because it has become harder for them to save for 
retirement and they still have bills and a mortgage to pay. 
Others are still working to help their children pay for college 
or to assist a loved one with steep medical bills.
    We must recognize and address the challenges facing all 
older workers in the modern workplace. This month we are 
celebrating the 50th anniversary of the Age Discrimination in 
Employment Act, so-called ADEA. This law was a great 
achievement when it was passed. It was intended to protect jobs 
for older workers.
    I remember working as a lawyer on age discrimination cases 
on the plaintiff side in Lackawanna County, Pennsylvania. I 
relied upon--as anyone representing a plaintiff bringing an 
action, I had to rely upon the ADEA in a substantial way in 
those days. It was hard then for workers to fight back against 
age discrimination under the law as it stood then. It is even 
harder now. As our witnesses will explain, it has gotten even 
more difficult.
    Just as baby boomers were starting to turn age 65, a U.S. 
Supreme Court decision weakened the ADEA protections. We have 
got to fix that.
    I would like to thank Chairman Collins for joining me and 
joining other Senators, Senator Grassley and Senator Leahy, in 
introducing legislation that would make clear that age 
discrimination is totally, totally unacceptable in the 
workplace. The Protecting Older Workers Against Discrimination 
Act would restore the tenets of the original ADEA.
    As 10,000 people turn 65 every day, we have a 
responsibility, first to evaluate discrimination laws currently 
in place to make sure they are working as intended, and update 
them accordingly, and, second, pass new laws that respond to 
changing demographics, innovation, and changes in the economy. 
Families need support to care for loved ones while working and 
need help saving for retirement. Older workers with acquired 
disabilities need to be better supported in the workplace. 
Displaced workers need access to quality training opportunities 
and support finding new jobs.
    As we have heard time and again, talent is ageless. Our 
lives must reflect that.
    So I look forward to hearing from our witnesses about what 
more we can do to attract and retain older workers and to 
support America's aging work force.
    Thank you, Madam Chair.
    The Chairman. Thank you very much, Senator. I also want to 
acknowledge the other Senators who have joined us this morning, 
and I am sure there will be others in and out as they race 
among the various committee hearings that are scheduled. 
Senator Cortez Masto is here, Senator Fisher, Senator Nelson, a 
former Chairman of this Committee, have all joined us.
    I want everyone to know that our new 53-page report, which 
the staff of the Committee on both sides worked so hard to 
complete, entitled ``America's Aging Workforce: Opportunities 
and Challenges,'' has been approved by the Committee members 
and will be issued today in conjunction with this hearing. So I 
want to thank everyone who worked so hard on that, both the 
staff and the members.
    Our first witness today is Laurie McCann. Ms. McCann is a 
senior attorney with the AARP Foundation and an expert on age 
discrimination and other employment issues affecting our aging 
work force.
    Next we will hear from Fernan Cepero, who will testify on 
behalf of the Society for Human Resource Management. Mr. Cepero 
is the Chief Human Resources Officer and the Chief Diversity 
Officer of the YMCA of Greater Rochester, and also serves as a 
member of the USA Human Resources Partner Organization and 
Global Leader.
    Next I am delighted to introduce Ralph Jellison from 
Orland, Maine. For 27 years, Mr. Jellison worked at a paper 
mill in Bucksport, Maine. I will never forget the call that I 
got three years ago, telling me that this terrific paper mill 
that had always been such a gem was going to be closed. It was 
totally unexpected. Mr. Jellison lost his job, his paycheck, 
and his way of life. He will tell us how, at age 52, he, with a 
family of six, acquired new skills from a local training 
program and obtained a new job at GAC Chemical in Searsport, 
Maine, where he is now such a valued employee.
    I am going to turn to our Ranking Member to introduce our 
witness from Pennsylvania.
    Senator Casey. Thank you, Madam Chairman. I am pleased to 
introduce Lisa Motta from Pittsburgh, Pennsylvania, as well as 
her guide dog, Aspen. Lisa, I want to first of all apologize. I 
was running from one meeting to this hearing and I have not had 
a chance to personally greet you and say hello, but we will 
make sure we do that after the hearing.
    Lisa is a recruiting administrator at PNC Financial 
Services, of course headquartered in Pittsburgh, one of the 
largest financial services firms in the United States. She will 
tell us about her experience re-entering the work force in her 
50's, and starting a new job in an entirely new field. She will 
also tell us how she succeeded in her current job and how her 
employer and vocational rehabilitation programs have supported 
her.
    Lisa is joined by her manager at PNC, Deborah Smoody, who 
is seated behind her. Thanks for being here.
    Lisa's presence is illustrative of PNC's support of its 
workers and the company's commitment to their employees and 
continued success. Lisa, we look forward to your testimony and 
I look forward to catching up with you afterwards.
    I also want to note, Madam Chair, that Laurie McCann has 
roots in Pennsylvania. Is that true?
    Ms. McCann. Yes.
    Senator Casey. Erie?
    Ms. McCann. Born in Erie. Raised in Pittsburgh.
    Senator Casey. Raised in Pittsburgh. Well, thanks very 
much. I am sorry to have Pennsylvania dominate this hearing.
    The Chairman. I was going to say, how did I allow that to 
happen?
    Senator Casey. We were trying to be balanced, but I think 
we have achieved an imbalance, but I am happy about that.
    The Chairman. Thank you. Ms. McCann, we will start with 
you.

 STATEMENT OF LAURIE McCANN, M.S., J.D., SENIOR ATTORNEY, AARP 
                   FOUNDATION, WASHINGTON, DC

    Ms. McCann. Thank you. Chairman Collins, Ranking Member 
Casey, and members of the Committee. Thank you for inviting 
AARP to testify today. AARP commends you and your staff for the 
important report on older workers the Committee is releasing 
today. With the 50th anniversary of the enactment of the ADEA 
just nine days away, this is a fitting moment to discuss how 
best to ensure that older workers are able to put their 
experience to work, and to underscore that it is simply good 
business to recruit and to retain talent, regardless of age.
    Older workers face numerous obstacles that cannot be fully 
addressed in one hearing. Since the ADEA turns 50 next week, 
and age discrimination is my area of expertise, my principal 
focus will be age discrimination. I will then touch briefly on 
the challenges of balancing work with family caregiving 
responsibilities and preparing for retirement.
    While the ADEA has achieved a great deal in the past 50 
years, age discrimination remains persistent and pervasive. 
Nearly two-thirds of older workers report that they have either 
experienced or observed age discrimination in the workplace. 
Negative stereotypes about older workers that were the target 
of the ADEA in 1967 are still distressingly prevalent, but age 
discrimination is also taking new forms, such as requiring 
applicants to be digital natives, limiting recruitment for 
entry-level positions to college campuses, and online job sites 
using algorithms to screen out older applicants.
    Best practices by employers are important but are no 
substitute for strong legal protections. Unfortunately, over 
the year, courts have failed to interpret the ADEA as a 
remedial civil rights statute. Instead, they have narrowly 
interpreted its protections and broadly construed its 
exceptions. A prime example is the 2009 Supreme Court Decision 
in Gross v. FBL Financial Services, which imposes a much higher 
burden of proof on age discrimination victims than on those who 
experience race, sex, or religious bias. Discrimination is 
discrimination, and cases of proven age discrimination should 
not be treated more leniently than other forms of 
discrimination.
    The most important step policymakers can take to enhance 
opportunity for older workers is to restore and strengthen the 
ADEA. The first step should be the immediate passage of the 
bipartisan Protecting Older Workers Against Discrimination Act, 
sponsored and co-sponsored by the leaders of this Committee. 
AARP greatly appreciate your leadership and consistent support 
of this legislation to relevel the playing field for older 
workers under the law.
    Next, this Committee should hold a series of hearings on 
the challenges facing older workers in today's economy, and 
specifically what changes are needed to update and strengthen 
the ADEA to adequately protect older workers for the next 50 
years.
    On caregiving, most of us have been, are, or will be family 
caregivers, and most are employed, juggling work and caregiving 
responsibilities. Employers have an economic interest in 
supporting their employee caregivers so they do not lose 
talented workers, and many have instituted programs and 
benefits to support them.
    Policymakers also have a role. The leaders of this 
Committee have been champions for family caregivers. AARP 
appreciates Chairman Collins' sponsorship of the Raise Family 
Caregivers Act. We also thank Chairman Collins and Ranking 
Member Casey for their leadership on the Lifespan Respite Care 
Reauthorization Act.
    On retirement, the principal reason older workers do work 
longer is financial need. Fewer are covered by traditional 
pensions that promise guaranteed lifetime income, and unless 
Congress takes immediate action to pass Senator Brown's Butch 
Lewis Act of 2017, as part of any omnibus government funding 
bill, more retirees worked their entire lives to earn a modest 
pension will see those promises broken and their pensions cut, 
not years before retiring but while already retired and living 
on those pensions.
    Moreover, retirement savings are woefully inadequate. About 
three in ten near-retiree households have no retirement savings 
at all, and the median retirement savings of all near-retiree 
households was only $14,500 in 2013. Yet federal action on this 
front has stalled. Our written statement mentions some steps 
that AARP is taking to address this serious problem.
    While many people plan to work longer to boost savings, 
unplanned events like job loss, health problems, and caregiving 
often prevent them from doing so. Public policy must empower 
workers to work longer, but it must also enable workers to 
retire with dignity and financial security after a lifetime of 
work. Older workers make valuable contributions to their 
employers, the economy, and the Nation as a whole.
    AARP again thanks this Committee for inviting us to 
testify, and I would be happy to answer any questions.
    The Chairman. Thank you so much for your excellent 
testimony. Mr. Cepero.

  STATEMENT OF FERNAN R. CEPERO, MA, MS, PHR, SHRM-CP, CHIEF 
 HUMAN RESOURCES OFFICER AND CHIEF DIVERSITY OFFICER, THE YMCA 
 OF GREATER ROCHESTER, ROCHESTER, NY, ON BEHALF OF THE SOCIETY 
                 FOR HUMAN RESOURCE MANAGEMENT

    Mr. Cepero. Good morning, Chairwoman Collins and Ranking 
Member Casey. It is an honor to be with you today to discuss 
opportunities and challenges presented by America's aging work 
force. I am Chief Human Resources Officer and Chief Diversity 
Officer at the YMCA of Greater Rochester, and I appear today on 
behalf of the Society for Human Resource Management, or SHRM.
    Chairwoman Collins, according to the U.S. Department of 
Labor, by 2050 the number of individuals in the labor force who 
are age 65 or older is expected to grow by 75 percent, while 
those who are 25 to 54 is expected to grow by two percent. At 
the same time, baby boomer employees are retiring and taking 
their skills with them.
    At the YMCA of Greater Rochester, for example, older 
workers are attracted because we offer meaningful work, 
flexible work arrangements, and attractive benefits. Our 
current work force is 35 percent comprised of employees over 
the age of 50, up from five percent in 2002. My experience, a 
diverse work environment positively impacts the workplace. At 
the YMCA, we have see real-life examples, not only of the value 
of retaining the skills of older workers but also of mentoring 
of employees of different experience levels. I would like to 
share a couple of stories.
    One of our most valuable employees has been Sonny Veltre, a 
former Olympic swimmer who passed the rigorous lifeguard 
recertification test at age 87. Sonny's contributions to the Y 
have been immeasurable. Just ask the nine people whose lives 
Sonny has saved over the years, including three people who had 
heart attacks while in the water, and a young woman with 
special needs who suffered a seizure in the pool.
    We have also had successful mentoring relationships between 
Tom, an experienced buildings and ground director of the baby 
boomer generation, and Brad, a generation Y director who is new 
to his position. As Brad attests, Tom coached him on all sorts 
of issues, from mechanics to staffing. Likewise, Tom cited 
benefits of sharing his expertise and gaining personal and 
professional satisfaction from seeing Brad grow and succeed in 
his role.
    SHRM and the SHRM Foundation, along with AARP, have looked 
at similar effective strategies used by employers in various 
industries. These are focused on key elements: retaining and 
engaging older workers as long as possible, transferring older 
workers' knowledge to younger employees before they leave, 
recruiting older talent, and creating a successful age-diverse 
environment.
    My written statement highlights several effective employer 
practices, but I will highlight some of the key ones here. 
First, flexible work arrangements are valued by employees of 
all ages, but can especially be attractive to older employees. 
Designing these arrangements with older workers in mind may 
result in continued innovations, offering shorter shifts, 
offering a shared leave pool, or offering project-based work. 
CVS Caremark, for example, offers the Snowbird program, a 
flexible work option that allows older workers to transfer to 
different CVS pharmacy store regions on a seasonal basis.
    Then there is phased retirement. Phased retirement is an 
attractive strategy for keeping older employees in the 
workplace, giving the employees the possibility to reduce work 
hours to transition into full-time retirement. The Steelcase 
company, for example, was facing a large number of retiring 
boomers, especially in the IT and manufacturing departments, 
and then Steelcase began their phased retirement plan in 2012.
    In addition, there is mentoring and knowledge transfer 
programs that can work both ways. The most common way is 
ensuring that older workers pass along their institutional 
knowledge to younger workers. But some knowledge areas, such as 
technology skills, are ripe for reverse mentoring, where 
younger workers help mature workers learn about new technology.
    And finally, health and wellness benefits. These are cited 
by older employees as a top priority.
    In closing, SHRM supports many public policies that 
encourage employment of the aging work force as outlined in the 
Committee's reports. Specifically, we support and encourage 
employer-sponsored health insurance, wellness programs, and 
retirement plans, and support new workplace flexibility 
legislation that would expand workplace flexibility for all 
employees.
    SHRM and the SHRM Foundation are committed to advancing 
this conversation, and I am happy to answer any questions that 
you may have. Thank you.
    The Chairman. Thank you very much. Mr. Jellison.

STATEMENT OF RALPH JELLISON, RETRAINED MANUFACTURING EMPLOYEE, 
                         ORLAND, MAINE

    Mr. Jellison. Good morning, Chairman Collins, Ranking 
Member Casey, and distinguished members of the Senate Special 
Committee on Aging. Thank you for the opportunity to testify 
today. My name is Ralph Jellison. I am a Marine Corps veteran, 
a husband, and a father of six children.
    After serving in the Marine Corps, I returned home to 
Sorrento, Maine, and got a job working for G&G Electric. The 
following year I got hired at the Champion Paper mill in 
Bucksport, Maine. It later became known as Verso Paper. The 
last five years of my employment there, I worked as a calendar 
operator on No. 1 paper machine that produced specialty-grade 
paper. It was a really good job that paid well and had great 
health and retirement benefits.
    I had been at the mill for 27 years when, in October 2014, 
we got word that the mill was going to make an announcement. We 
had already been through a restructure, a redesign, and we saw 
the shutdown of No. 2 paper machine. Through buyouts and 
attrition, the company managed to keep many of its people 
employed. Since the line I worked on had nine months of orders 
to fill, we thought it would not be us. No such luck. The 
company announced that it would be shutting down at the end of 
the year, right around the holidays.
    I became overwhelmed with anxiety. What would I do for a 
job? This is all I have done for 27 years. Luckily, I was one 
of the fortunate ones to get one of the few remaining bids in 
the power plant. We were told that the demolition company 
planned on running the power plant for at least two years, and 
maybe longer if it proved profitable. Now I had time to get 
things in order and figure out what I wanted to do should they 
choose to shut it down. Well, what was supposed to be two years 
turned out to be just four months.
    So here I was--52 years old with my family relying on me, 
and I was out of work like the rest of them. The job market had 
been flooded with hundreds of unemployed mill workers. I live 
in a small town where there are not a whole lot of options for 
me to just go out and find another job that paid as well as the 
mill. I became very depressed when one of my former bosses, who 
had pushed hard for me to go back to school, called and said, 
``Ralph, I do not want to be the bearer of any more bad news, 
but do not waste your time going to school because in this 
field they want someone they can vest in for 30 years, not 10. 
I am sorry, but I just would have hated to see you go through 
this on my recommendation and then not get hired.'' I also had 
been told that the state could only extend benefits for a 
certain amount of time and going to school full-time would have 
been hard on my family financially.
    To make matters worse, my son had been diagnosed with 
chronic Lyme disease. Now I was not only losing my job, I was 
losing my medical insurance as well. At no other time in my 
life had I needed it more, and Cobra insurance was not even 
remotely affordable at $1,574 a month. If not for my severance 
package, I do not know how we would have managed financially, 
with thousands of dollars a month being spent on medications 
for my son. To lose a job is stressful but to worry about the 
health of your child is even worse. It was just one stressful 
event after another. God bless my wife for remaining positive. 
I remember her saying this many times, ``Honey, when one door 
closes, another one opens.''
    Before long, things started looking up. I spoke to one of 
the career counselors about school and she said, ``Ralph, would 
you be interested in an HVAC or fine woodworking course at 
Eastern Maine Community College? You do not have to take 
algebra or any other classes. It only lasts for six months. You 
could develop some new skills that may help you find a new 
job.'' As it was, only the fine woodworking class was 
available, so I signed up.
    Still, as great as it sounds, the thought of going back to 
school again after 36 years was intimidating. I cannot say 
enough good things about the fine woodworking program at EMCC. 
The instructors were phenomenal. Besides teaching, they also 
talked about valuable life experiences and reassured us that 
businesses out there liked the older generation's work ethic.
    This is where I also had the chance to meet and talk to 
some of the younger students. I had the privilege of speaking 
to a very skilled, intelligent young lady. She said, ``Mr. 
Jellison, you do know that our classes are only 10-week windows 
of time and we also have a success center where people like me 
could have tutored you through any difficult classes.'' I said, 
``If I had only known then what I know now, I would have 
definitely tried the electrical course.''
    Upon completion of my woodworking course, actually the day 
after I graduated, I got hired at Hinckley Yacht Company in 
Trenton, Maine. I was elated. My daughter, Sabrina, surprised 
me with tickets to a concert. I said, ``Honey, you do not have 
to do this,'' and she said, ``Dad, I am proud of you for going 
back to school and we are going to celebrate.'' Hearing my 
daughter say she was proud of me meant the world to me.
    I worked at Hinckley for three months until I reaggravated 
an old knee injury and had to get it operated on. I received 
short-term disability for 12 weeks which does not pay much. 
Again, another setback.
    While I was out, I met a former mill employee I used to 
work with at the power plant. He was working for GAC Chemical 
company in Searsport, Maine. I asked him to let me know when 
they were hiring. As it turned out, three days later I got a 
call. I spoke with Ryan and he said, ``Tell me what you did in 
the mill for the last 18 years. Wow, you are versed in a lot of 
things we need here.''
    When I got home I checked my e-mail and I had been accepted 
for employment at GAC. The door my wife had talked about had 
opened. Good pay, good medical insurance, and close to home. My 
prayers are answered.
    My life was turned upside down when I was 52 years old, but 
this opportunity to go back to school has brought me to this 
point in my life. We are back on our feet and I am providing 
for my family again. I cannot tell you how good this makes me 
feel. As dismal as things looked for a while, to where I am 
now, I only hope my story could be inspiration enough for 
someone else to better themselves after facing the same sort of 
situation that I did.
    Thank you, and I would be happy to answer any of your 
questions.
    The Chairman. Mr. Jellison, thank you so much for sharing 
your personal story. It was extraordinarily moving, and your 
perseverance is truly inspiring. Thank you.
    Mr. Jellison. Thank you.
    The Chairman. Ms. Motta.

 STATEMENT OF LISA MOTTA, RETRAINED HUMAN RESOURCES EMPLOYEE, 
                    PITTSBURGH, PENNSYLVANIA

    Ms. Motta. Chairperson Collins, Ranking Member Casey, 
members of the Committee, thank you having me here today to 
testify. It is an honor to speak to you on such a wonderful 
topic.
    I am from Pittsburgh, Pennsylvania, and I work as a 
recruiting administrator at PNC Financial Institute, where I 
have been employed for the last three years. Prior to that, I 
was out of work for almost 20 years. My first career was as an 
elementary education schoolteacher. Early on in that career, I 
became totally blind due to glaucoma. It became increasingly 
difficult to continue teaching, and so I decided to stay home 
and raise my two wonderful children. I knew that there would be 
a time that I would want to go back to work, but I never knew 
how I would be able to accomplish it.
    As my children began growing older, my husband and I spent 
many nights talking about how we would be able to afford the 
ever-increasing cost of college tuition and, someday, when 
would he have enough money that he could retire?
    Starting a second career in your 50's is no easy task, but 
I had the added disadvantage of now being totally blind. I 
wanted to maintain my teaching certificate and so I enrolled at 
the local college and took some teaching courses. As I applied 
for teaching positions, I knew it was going to be difficult to 
get into a classroom again, so I began to look for part-time 
work which would utilize some of my teaching skills. I did end 
up with a part-time job at a local chiropractic office, but 
that position was soon eliminated.
    Most employers are using online applications now, and those 
are not always accessible with screen-reading software such as 
the blind need to use. When I did manage to get a foot in the 
door and an in-person interview, it seemed as if the employer 
already had preconceived notions about my abilities, based on 
my disability.
    After much communication with PNC, I was hired in their 
Human Resource Department. Unfortunately, at that point, my 
guide dog had reached her retirement age. Fortunately, though, 
the Office of Vocational Rehabilitation assisted me in 
retraining in my white cane skills. They taught me a local 
route from my home to my office building, how to use public 
transportation, and my entire PNC building.
    When my new guide dog, Aspen, arrived, they again partnered 
with Leader Dog of Rochester, Michigan, to help me train my dog 
in the route that I would need to take to my building. They 
also assigned a local technology vendor to come into PNC and 
work at my desk to get my access technology working with PNC's 
computer technology. Once these obstacles were overcome, I was 
able to start coordinating interviews for internal and external 
candidates across the entire PNC footprint.
    Later in this year, my entire department moved to a new 
building in Center City, Pittsburgh. Again, OVR partnered with 
PNC to ensure that my building was totally accessible for the 
visually impaired.
    My second career has afforded me the opportunity to assist 
my two children with college tuition and has afforded us to put 
some money aside for retirement, and has decreased my husband's 
retirement age to a lower age.
    I know, first hand, how difficult it is, and how 
challenging it is to look for a job after the age of 50. I also 
know how daunting a task it is to look for a job while you are 
disabled.
    It seems as if we need to overcome social and attitudinal 
barriers in this society. We also need supportive services, 
like I have used with OVR, coupled with supportive employers 
who are able to assist you and provide accommodations. It is 
also important that we have laws in place that will ensure 
workers like myself do not face any form of discrimination when 
they walk into an interview.
    Thank you again for having me here today to testify, and I 
will be happy to answer any of your questions.
    The Chairman. Thank you very much for your testimony. Since 
we know that older workers are more likely to have a disability 
than younger workers, it is really important that we consider 
that as we attempt to address this problem. I also had to smile 
when you talked about your guide dog reaching retirement age. I 
did not realize that happens to guide dogs as well as to 
people.
    Mr. Jellison, I want to start with you. I was amazed when I 
heard you say that your supervisor, who clearly liked you and 
did not wish you ill in any way, called you up with such 
discouraging advice, telling you that it was not worth your 
while to go back to school. The fact that you, nevertheless, 
persevered was just so important.
    So once you went to Eastern Maine Community College--and I 
have visited that class of fine woodworking, and I remember all 
the workers were from the Verso plant, and I am virtually 
positive that every single one of them got a job afterwards. 
That just shows the benefit of those job training programs and 
the Trade Adjustment Assistance that helps make them 
affordable.
    What was it about the program, after you had been 
discouraged from even going there, that helped you to regain 
your confidence after being out of school for so many years? 
That must have been really tough.
    Mr. Jellison. It was. I am actually proud of it.
    Again, those instructors were phenomenal. They gave a lot 
of talk on real-life experiences, because some of them had 
owned their own businesses, and told us that they actually 
preferred the older person because he did not have to keep 
going up and say, ``Put the phone away,'' you know. You do not 
spend so much time on the phone at work.
    But I actually spoke with a young lady, because I was not 
versed in all the college aspects of life. I went into the 
Marine Corps and I did not know all that stuff. But she was 
very nice, very skilled at what she did. And when I was talking 
about, you know, what I could have done, that I could have 
taken this, that is when she told me there was only ten weeks 
that you would have had to take that class. And I was like 
[sighs]. And she goes, ``But we have a success center that we 
have people that offer their time that could have helped tutor 
you through this.''
    But after that I had more confidence in myself, thinking 
that I actually--I could have done this, and the guy that 
basically did all the classroom work with us, he, too, had lost 
his job two years prior, and got hired by Les Stockpile, to 
teach that class. So it was even better, and he was a great 
instructor.
    The Chairman. I remember him.
    Mr. Jellison. Brad was awesome.
    The Chairman. Tell me a little bit more about the Success 
Center, because I visited that as well, at Eastern Maine 
Community College and I really think it is important for people 
who have been out of the academic world for a very long time. 
Did you happen to use it, or had you not really known about it 
until you were fine?
    Mr. Jellison. I found out about it through the young lady. 
I mean, I saw it on the thing--the building. It said ``Success 
Center,'' like a room for them, but I did not really know what 
it was all about until she had explained it to me. I mean, of 
course I knew about tutors, but not for like a tech school or 
something like that. When she made me aware of that, she was 
actually tutoring one of her fellow students, in CAD, that was 
having problems. She said ``and I could have done this for you 
as well, with algebra.'' You know, she goes--so that just made 
me feel better than I would not have been all alone, and I knew 
how I struggled in high school with it, and then I had to take 
it in college. It was kind of intimidating.
    The Chairman. Thank you.
    Ms. McCann, you talked about the very unfortunate Supreme 
Court decision in 2009 that made it more difficult to prove 
discrimination based on age alone, and the fact that Senator 
Casey and I, along with Senator Grassley and Senator Leahy have 
introduced a bill to overturn that decision, and we appreciate 
AARP's support for that bill. For the life of me I do not 
understand why there is a higher burden for proving that age 
discrimination was the reason for the adverse employment action 
compared to other protected classes such as gender, religion, 
race.
    Why do you think that protecting Americans based on their 
age is more challenging than protecting them based on their 
race, religion, and gender?
    Ms. McCann. That is a great question and I think it is 
because, in this--at least in this country, freedom from age 
discrimination seems to be a second-class civil right, that we 
view age discrimination as different from other forms of 
discrimination, and like almost somewhat acceptable, which is 
what happened in the Gross decision, where the Supreme Court 
sent a message that is saying some age discrimination is OK. It 
sent a message to employers, and it sent a message to the 
courts, and as a result, plaintiffs' attorneys are less likely 
take your age discrimination case because they know that 
evidentiary burden is so much higher. So they would rather take 
another case that they would have a higher likelihood of 
success.
    I do think the root of the problem is that we view age 
discrimination less as a civil right but more as an economics 
issue, that sometimes it makes sense to discriminate against 
older workers, and that we still hold these unfounded 
assumptions and stereotypes about older workers, despite the 
fact that the ADEA has been on the books for over 50 years, or 
50 years next week. So I do think that that is--until we tackle 
that problem and why it is the case, we face a real uphill 
battle.
    The Chairman. Thank you. Senator Casey.
    Senator Casey. Thank you. I wanted to highlight some of the 
work that is done in the Health, Education, Labor and Pensions 
Committee. Chairman Collins and I are members of that 
committee. In 2014, as many of you might remember, we passed 
the Workforce Innovation and Opportunity Act, so-called WIOA 
Act. Part of that legislation was the reauthorization of the 
Rehabilitation Act, which supports vocational rehabilitation 
programs across our states. We recognized, at that time, that 
individuals who acquire disabilities need training and support 
to succeed in the workplace, and that employers need support as 
well.
    So, Lisa, I wanted to start with you. In your experience, 
is it important for employers to have access to information 
about how to accommodate workers' disabilities?
    Ms. Motta. Yes. Thank you, Senator Casey. In my case it 
worked very well. OVR and PNC partnered. OVR is trained. They 
understand the situation of the disability. I worked very 
closely with a mobility instructor, who pointed out several 
instances that PNC maybe did not recognize, because they are 
looking at it from vision-impairment situation. And if you do 
not walk the walk, you do not always understand. It is like 
training the guide dogs. Leader Dog is almost a dog whisperer. 
They understand what the dogs are thinking and doing 
constantly.
    So you want someone who is trained in that, to understand 
and show you, show you how simple it could be to enable a 
worker with just minor, minor changes, or adjustments. I think 
it is very important and it helps the employer understand, and 
I do believe that PNC was grateful for their collaboration 
together.
    Mr. Casey. And when you mentioned OVR, the Office of 
Vocational Rehabilitation, a state program, or state office, I 
should say, but helped substantially by federal support over 
the years, you did say that the Office of Vocational 
Rehabilitation was able to, quote, ``help me identify and learn 
a public transportation route to work that I could navigate 
with a long cane until my new guide dog arrived.'' That is a 
pretty significant point to make about the help.
    I guess the other part about this, Lisa, is the--from the 
employer's side of this, if employers know how to accommodate a 
disability or disabilities that a worker has, can that help the 
employer track and keep employees with disabilities? Do you 
have anything to add about that?
    Ms. Motta. Yes, and I think PNC is working on a committee 
right now to look at just all their--through their entire 
enterprise through the lens of disabilities. They, indeed, want 
to be able to understand the situations and how to 
accommodate--make simple accommodations.
    For example, when I arrived at PNC, the phone blinked when 
you had a voice message. With a simple connection process 
through technology, they enabled that phone to not only blink 
but when I picked that phone up it would beep and indicate to 
me that there was a message on that phone for me. Very simple 
accommodation but working together with the Office of 
Vocational Rehabilitation that was an accommodation that could 
be made.
    Mr. Casey. And finally, Lisa, your guide dog, Aspen, I know 
that those who use service animals rely upon them and develop a 
really special relationship with them. How important was it for 
you to receive training in how to work with Aspen?
    Ms. Motta. So great question, because I think this 
benefited a group of three: Leader Dog, OVR, and myself. So 
Leader Dog delivered Aspen the week before my start date. OK? 
They are from Rochester, Michigan. They are not really sure 
about Pittsburgh, Pennsylvania, right, and we know it is a 
triangle there. Hard to navigate. And OVR, from Pittsburgh, 
could navigate the roads very quickly and very well. So when 
they partnered together, one knowing the area and one knowing 
how to train the dog, in a week's time we mastered it, all 
three of us, together.
    Aspen not only assists me, but look, I work in a large 
building and I touch many people in the day, and so does Aspen. 
So Aspen is not only assisting me but she is assisting every 
person she comes across. Every person we walk past has a giant 
smile on their face in the middle of a workday, and not just on 
Fridays. Oftentimes when she is under my desk without her 
harness on, I get a little knock on the side of my cube that 
says, ``Could I have a little Aspen moment today?''
    Senator Casey. That is great. Well, I know, just in 
conclusion I know Pittsburgh has got a lot of hills, a lot of 
bridges, so not the easiest terrain to get around.
    Lisa, thanks very much.
    Ms. Motta. Thank you.
    The Chairman. Mr. Cepero, the YMCA, the Y's all over the 
country are known in making great strides in recognizing and 
responding to our aging society. For example, I visited, 
earlier this year, the Bangor YMCA, which hosts a number of 
programs to promote the health and well-being of older adults. 
In fact, it was wonderful seeing the age span of people served 
by that YMCA, which had programs for everybody. It was just 
truly terrific. It is heartening to learn that the Y's policies 
and practices are supporting aging employees as well.
    Now some would say that the Y has chosen that route for its 
employees because of your nonprofit mission. But could you tell 
us if there is also a good business case to be made for 
encouraging the retention of older workers?
    Mr. Cepero. Yes. Yes, I can, Senator Collins, and thank you 
for that question. The business case for the YMCA of Greater 
Rochester actually is rooted in our diversity and inclusion 
statement, which is ``we are for all.'' So when we embarked on 
health and wellness programs for older workers, that just 
opened up a new opportunity and a new demographic, and in the 
dimensions of diversity, of a population that we had not served 
in the past.
    So it absolutely made sense for us to attract workers that 
were going to reflect our new membership base, so that was the 
business case for us, and it is organic for us to have all five 
generations working side by side with each other. It is 
essentially a reflection of the community in which we are. And 
I have had the opportunity to work with the Bangor YMCA, so I 
am very familiar with the programs that they do, and they are 
doing great work there as well.
    The Chairman. I am delighted to hear that. I am very proud 
of what they do also.
    I know that you are also a faculty member and that you 
often provide training and talks on human resource areas. When 
you are talking to other H.R. specialists, what do you find 
motivates them to recommend the implementation of practices and 
policies that are going to help with an aging work force?
    Mr. Cepero. What motivates them is the fact that it is an 
opportunity for them to, well, do two things. One, to retain 
the knowledge in their work force, but also an opportunity to 
retrain and bring some new skills to the work force across the 
board, across all generations.
    The Chairman. I would note that our report presents several 
examples of various companies that support aging workers, and 
we hope, by issuing this report, we can encourage and exchange 
best practices, and I know that is something that SHRM does 
frequently.
    Mr. Cepero. Yes. Yes, they do.
    The Chairman. Thank you.
    Mr. Jellison, did you get some sort of tuition assistance 
that enabled you to go to Eastern Maine Community College?
    Mr. Jellison. Basically what I got was the RTAA, the 
adjustment. They paid maybe 50 cents or less, per mile, for 
going to school if it was like over 20 miles. They helped with 
that.
    The Chairman. So the Trade Adjustment Assistance programs 
helped with the tuition and mileage for people who lived a 
certain distance away. And I have been a big proponent of that 
program. Frequently it has been a target for being eliminated, 
which I just do not understand, and you are living proof.
    Mr. Jellison. Yes.
    The Chairman. So just so I can bolster my case as I argue 
for the retention of that program, without that assistance do 
you think that you would have gone back to school? Would you 
have been able to take the time to, and bear the expense of, 
going to school if it had fallen on you totally?
    Mr. Jellison. I could not have done it. I wish the school 
had been longer as well, because it did go so fast. But with 
the family depending on me financially, I just--I would not 
have been able to do it. I would have had to pick up some kind 
of job.
    The Chairman. And I think that is such an important point, 
because by giving you that little bit of help, under the Trade 
Adjustment Assistance, when you lost your job through no fault 
of your own, despite being an extraordinarily good employee for 
decades, but without that help you would have probably had to 
pick up a job that paid far less than what you are earning now, 
and you have six children to support, and it would have been so 
difficult for you. That is what we need to remember about these 
programs, is they give a temporary bit of assistance, but it 
makes a life-long difference to people like you.
    Mr. Jellison. Yes.
    The Chairman. Thank you.
    Mrs. Motta, I really admire hearing your story as well, 
because to lose your sight at such a young age must have made 
things so difficult for you. As you started to explore going 
back to work after staying home and raising your children for a 
number of years, how did you find out what assistance was 
available to you? You have talked about how critical the 
occupational and vocational rehabilitation assistance and your 
guide dog, for example, but how did you tap into that world?
    Ms. Motta. So shortly after I lost my sight, we just 
started researching, and we talked to Blind and Vision 
Services, who assisted me in learning Braille. OVR, of course, 
with mobility. I had to start again, just to learn the basic 
skills. I even used the Center for Independence Living, because 
I had two small children that depended on me. So just reaching 
out to one organization, and then trying to connect with 
another, and learn what each one could offer me.
    Going back to school was no easy task, because, when I went 
to college to get my degree in teaching I was sighted. So now I 
needed to learn how to learn without sight. And between BVS and 
OVR I was able to identify a college that could offer me 
credits. Not only did I have to maintain my teaching 
certificate but I had not yet gotten my permanent teaching 
certificate, so it was going to be a long, long road to hoe in 
college.
    But just going from one organization, leading to another 
organization, to different technology vendors where I could 
learn access technology, and reaching out to them.
    The Chairman. Thank you. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Thank you so much for the 
hearing today, and I apologize. I had another committee that I 
had to attend very briefly. But thank you for the written 
comments that you have given today.
    So, Mr. Jellison, I would like to ask you, because all of 
your testimonies today are compelling, but one of the things 
that really stood out to me was the fact that losing your 
health insurance potentially, when you lost your job at the 
paper mill, that impact--that fear that you have that it would 
not only impact you but your family and your children.
    Can you talk a little bit about--and put it in perspective 
for people, because I think sometimes we do not think about the 
real lives and the impacts that this has on not just the 
individual but their families. Can you talk a little bit more--
and you may have--but if you do not mind, a little bit more on 
how losing that access to health care, or health care coverage, 
not just for you and your family, what that meant and what it 
felt like.
    Mr. Jellison. Quite a long process, but, I mean, when I 
lost my job the company gave us two months for free, and then 
we had the option of going onto Cobra, which was, figured up 
for us was going to be $1,574 if I did not have job anyway, or 
what I was getting for unemployment. I just cannot do it.
    Senator Cortez Masto. Right.
    Mr. Jellison. I cannot pay that. And then, like I said, my 
son being diagnosed with chronic Lyme on top of that, I mean, 
it went like--I believe my wife was more into this than I was, 
but it was like nine months before we actually got help from 
the state and got, you know, some reimbursement for some of the 
things. But it was not all covered, and if I did not have that 
severance package I would have been so in the hole, I would not 
have been able to afford that.
    Senator Cortez Masto. Even more so. And I think people 
forget about that, the stressors on the families, when we are 
looking at closing things down and we are looking at a work 
force that--you had worked there for, what, 27 years?
    Mr. Jellison. Right.
    Senator Cortez Masto. And now you are asked to go find 
another job. It is not just a stressor on you. It is a stressor 
on your family. And the impact that it has for your spouse and 
for your kids, because they feel that stress as well.
    Mr. Jellison. They did.
    Senator Cortez Masto. It is not like they are immune from 
it. And so this really has an effect on all of our families, 
and I think sometimes people forget about that.
    That is something I know and carry with me. We came through 
the worst crisis in Nevada with that foreclosure crisis. We had 
so many people losing their homes, losing their jobs. We 
literally had a work force that thought that they had retired 
and were living comfortably, that lost their home, and then 
lost their retirement trying to save their home. So now they 
are back in the work force, but where are they going to work, 
particularly when you have 15 percent unemployment at the time.
    So it is challenging and I do not think we realize that we, 
here, in Congress--and I know that is why I so appreciate this 
hearing--we have worked so hard to identify not only this gap 
but then put dollars toward work force development, and really 
those programs that continue to help, particularly our older 
community, who is looking for new skills, new abilities to get 
a job in the work force.
    I am at the end of the baby boomers, when I was born, so I 
feel for you, and many who are in that second phase of looking 
for a new career. And I think we, in Congress, need to do a 
better job of working with all of you and helping train that 
work force, and train you, and giving the dollars for that work 
force development, and incentivizing and working with our 
businesses as well.
    So I appreciate you being here. Thank you.
    Mr. Cepero, hiring older Americans can be such an 
opportunity for employers, but I worry that some employers 
either do not realize this or do not know how to go about 
finding these workers or keeping them from leaving. Can you 
detail some of the ways that having older workers can benefit 
an employer, and how companies interested in this opportunity 
can recruit and retain these workers, and if there is anything 
we can do in Congress to help incentivize.
    Mr. Cepero. Sure. At the YMCA, we have a selection, a 
recruitment, and a retention strategy around older worker, and 
we bring them in either with skills that they have that 
complement some of the positions that we have, but more 
importantly, we also offer training for workers that may have 
been displaced.
    You may be aware that Kodak, Eastman Kodak company laid off 
several thousand workers in the Rochester area, and we hired a 
good number of those workers, and we retained them to become 
either early education specialists, or health and wellness 
specialists. Some of them went on to full-time careers with us.
    And that is one of the things that we hear, as far as the 
retention piece is concerned, is ``you gave me a new lease on 
my work life.'' ``You gave me new skills, and I am also doing 
meaningful work.'' I am often asked, ``Do you just hire, or do 
you only offer the positions that nobody else wants?'' No. One 
of the more important attractors for us is that we offer 
meaningful work and that they are giving back to the community.
    So it is a very meaningful encore career for them, and we 
do enjoy a high rate of retention. We have our Long Service 
Award ceremony coming up in a couple of weeks, and we have a 
few employees who are celebrating 25, 35, and 40 years with us, 
with no sign of retirement. And we do not want them to retire.
    Senator Cortez Masto. Right, but that is impressive. That 
says a lot.
    So I notice my time is up. Thank you very much. I 
appreciate it.
    Mr. Cepero. You are welcome.
    The Chairman. Thank you, Senator. Senator Casey.
    Senator Casey. Thank you, Madam Chair. I wanted to note for 
the record, as Senator Cortez Masto is here, that we believe 
she has the highest attendance record this year.
    The Chairman. She does.
    Senator Casey. Senator Collins, I have not vetted this with 
you, but do we have like an Aging Committee mug we could----
    [Laughter.]
    Senator Casey. Would you like a mug with our pictures on 
it?
    [Laughter.]
    Senator Casey. It will just be the Chairman's picture on 
the mug.
    The Chairman. I am totally bipartisan. I will put you on 
the other side.
    Senator Casey. Thank you, Senator, for great attendance. 
You set the bar high.
    I wanted to get to the questions that has been raised a 
couple of times, but, Ms. McCann, the question of the Supreme 
Court case and what that means. In your testimony I was just 
going to the--on page five you said with regard to the Gross v. 
FBL Financial Services, it says the court imposing a higher 
standard. Basically, what that means is a worker must prove 
that age played a decisive role, which is a big change. It 
lifts the burden substantially, and as you mentioned, 
diminishes the likelihood that lawyers will take these cases.
    And you go on to say, in the written testimony, quote, ``a 
significantly higher standard of proof, in short, the Gross 
decision signaled to employers that some amount of proven age 
discrimination is legally allowed.'' I never heard it 
articulated that way, but that is a searing indictment, I 
think, of the decision, a decision that we hope to rectify by 
the legislation we introduced, the Protecting Older Workers 
Against Discrimination Act. That is Senate Bill 443.
    But, Ms. McCann, anything else you would want to say about 
that?
    Ms. McCann. Yes. I mean, I think that statement, that 
truth, it impacts the ADEA's ability to deter age 
discrimination as well. I mean, if you think about it, there 
are two purposes to any civil rights statute. One is to remedy 
and provide relief to the victim, but the other is to deter 
future discrimination. And so when the Supreme Court, in Gross, 
says that we are going to allow a certain amount of age 
discrimination, and we are going to make it harder to prove, 
employers are not going to have that same incentive to sort of 
self-audit themselves to make sure that their policies and 
practices are age-neutral and they are not discriminating based 
on age.
    Senator Casey. Yes, I know, and I think most people who 
have had any experience with these kinds of cases know that it 
is often very subtle. It is not as if someone walks into the 
room and makes a declarative statement as to why they are 
firing someone, in the context of age. So I appreciate you 
highlighting that. That is critically important.
    And I guess the other thing I wanted to highlight as well, 
Lisa, you had given your testimony earlier, and you talked 
about how difficult it was to embark on a second career, 
especially a second career where you were not only out of the 
work force for a long time but had an acquired disability.
    I thought it was noteworthy that in your written testimony 
you said, quote, ``My second career has enabled me to work 
toward my personal goals like saving for retirement, but it has 
also given me the opportunity to advocate for others facing the 
same challenges.'' Anything you would want to say about that 
part of your testimony?
    Ms. Motta. Yes. I think since I have joined PNC I have 
spoken to a number of executives, and just mentioning the fact, 
or they will contact me to the fact of disabilities and what 
needs to be done in the work force for persons with 
disabilities. I think it is as discriminated against. Like I 
said, I think people have preconceived notions of what your 
abilities are. And everybody has abilities and disabilities, 
and I think I have brought to light, at least in my area of 
looking more at my ability, what is it that I am able to do.
    And so I do that. I belong to an employee business resource 
group called PNC Enables, and we work in doing that, in 
bringing things to light for all disabilities, not just vision. 
I happen to lead the vision and deaf resource group that falls 
underneath that umbrella, and so I am able to talk to other 
people within the company who have vision disabilities and 
deafness, and they are able to communicate in this group what 
their challenges are, what enables them to do a better job, and 
what challenges they face. And I am able to bring that to the 
forefront, to the leaders, and say these are some things. And 
the other resource group leaders do that too, for diabetes, 
physical impairments, invisible disabilities.
    And so I think in that respect being in with an employer 
who is supportive, we are able to have those discussions, to 
bring those things forward, and to work on those, and to make 
it a more inclusive environment.
    Senator Casey. Thanks very much.
    The Chairman. Thank you very much, Senator Casey.
    It has been remarked upon several times that this is the 
50th anniversary of the Age Discrimination in Employment Act, 
and that was one of the reasons the Committee wanted to hold 
this hearing today, but also why the report that we will issue, 
that summarizes the topic that we chose to focus on this year, 
does focus on America's aging work forces and the opportunities 
and challenges that they face.
    Earlier this year, the Committee sought and received input 
from various stakeholders, advocates, and employers and 
employees to help shape this report. Assuming there is no 
objection, these letters will all be included as part of our 
hearing record.
    The Chairman. I do want to thank all of our witnesses 
today. Each of you brought such an interesting perspective to 
the issues that we are focusing on, and your testimony today 
demonstrates the resiliency of Americans who face unique and 
difficult challenges, as Mr. Jellison and Mrs. Motta have. It 
also reminds us that as we grow older, all of us are likely to 
face some kinds of challenges as we continue to work longer. 
Employers--I am going to say it again--employers are going to 
need older workers. There are not enough workers in this 
country that they can afford to discard the extraordinary 
skills, the judgment, and experience that older workers bring 
to the workplace.
    We do need to correct the problem that was created by that 
2009 Supreme Court decision, and I know all of us are committed 
to doing so, and it is notable that it is a completely 
bipartisan bill, and I hope that we can get that through.
    Employers can be more creative. We have learned what PNC 
has done, what L.L. Bean has done, in my state. All of us can 
point to employers who have made a real effort along the lines 
of the YMCA, to reach out to older workers, make accommodations 
if needed, and they end up with a better work force, and I 
think that is the message that we need to get out to employers.
    So I look forward to continuing to work to advance federal 
policies and hold hearings like this, to heighten awareness. I 
think that is equally important.
    I also wanted to again thank the Committee staff on both 
sides of the aisle who worked very closely together in 
preparing this report. The Committee is losing our Fellow from 
the University of Iowa, Brian Kaskie, who has been with us for 
the whole year on a fellowship program, and his expertise has 
been invaluable and accounts for the number of footnotes that 
are in this report. You can tell that a professor played a role 
in writing it. And it really has been a cooperative effort, but 
since he is concluding his time with the Committee I did want 
to single out Brian and thank you.
    Again, thanks to all of our witnesses. Committee members 
will have until Friday, December 15th, to submit questions for 
the record. I want to give Senator Casey and Senator Cortez 
Masto a chance to make any closing comments they would like to.
    Senator Casey. Madam Chair, thank you, and thanks for your 
leadership of the Committee. I am completing my first year as 
Ranking Member.
    The Chairman. And you did a great job.
    Senator Casey. Thanks. We are grateful for your leadership. 
And I want to reiterate what the Chairman said about the staff. 
Keith Miller, on my staff, as well as Sara and Brian on Senator 
Collins' staff. I am told there are 208 footnotes, if that is 
correct.
    [Laughter.]
    The Chairman. Both of us noticed that.
    Senator Casey. And, as you mentioned, 53 pages.
    My staff has a good one-liner. Most of my best lines are 
written by staff, as you know. The good one-liner about the 
Aging Committee is once you are born, you are aging. It is a 
pretty good line.
    So we take these issues very seriously, and we cannot get 
our point across, cannot advance the ball in terms of policy 
without having good hearings and excellent witnesses. So, Ms. 
McCann, we want to thank you for the expertise that you bring, 
and AARP, and Mr. Cepero, thank you for reminding us about how 
valuable those workers are in the context of the workplace, but 
especially your testimony about the YMCA.
    The gentleman that you mentioned that was the lifeguard, am 
I right, in your testimony you said he was 87 years old?
    Mr. Cepero. Yes. That is when he passed his 
recertification.
    Senator Casey. Where you have dive, what is it, 14 feet 
underwater, to rescue someone? I could not do that when I was 
37, let alone 87. So we are grateful you brought that to our 
attention.
    Mr. Jellison, your story is particularly moving. I think 
when I consider what you were up against and what you had to 
overcome, and the same goes for Lisa Motta, you both have led 
quietly triumphant lives, triumphing and achieving so much in 
the face of tremendous obstacles. It is a great inspiration.
    So we know that this testimony will help us advocate for 
better policy in this area, to recognize the value that older 
workers provide, and as Chairman Collins said, the necessity 
for employers to recognize that these employees will be an 
increasingly larger share of our workplace.
    Finally, in conclusion, just some of the work that was done 
by the Committee, I wanted to highlight the work and leadership 
of the Chairman and members of the Committee, grandparents 
raising grandchildren was one of the topics. Senior nutrition 
was another. The devastation caused by Hurricanes Harvey, Irma, 
and Maria in the context of what happens to older citizens in 
that circumstance. And, of course, this hearing on aging work 
force. We are grateful for that work that was done by the 
Committee and thank the Chair for her leadership.
    The Chairman. Thank you very much. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. First of all, I echo the 
words of our Chairwoman and our Ranking Member. Thank you so 
much for taking the time to come here and talk with us. And I 
also want to thank the staff as well, of the Committee, and the 
Chairwoman and Ranking Member. Really, your focus and 
leadership on highlighting the issues that are so important to 
many people in our communities. I really enjoy being on this 
committee. I look forward to continuing the work that we do, 
and thank you both for your leadership.
    The Chairman. Thank you very much and I will develop that 
perfect attendance award and make sure that it is delivered to 
you. Thank you for your many contributions.
    This concludes our hearing today. Again, I want to give a 
special thanks to the staff for all of their work throughout 
the year. We could not do it without them. And thank you for 
sharing your stories today.
    This hearing is adjourned.
    [Whereupon, at 10:51 a.m., the Committee was adjourned.]

        
=======================================================================


                                APPENDIX

=======================================================================
   
      
=======================================================================


               Prepared Witness Statements and Questions
                             for the Record

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      Statement of Ralph Jellison
              Retrained Manufacturing Employee, Orland, ME
    Good morning Chairman Collins, Ranking Member Casey, and 
distinguished members of the Senate Special Committee on Aging. Thank 
you for the opportunity to testify today. My name is Ralph Jellison. I 
am a Marine Corps veteran, a husband, and a father of six children.
    After serving in the Marine Corps, I returned home to Sorrento, 
Maine and got a job working for G+G Electric. The following year, I got 
hired at the Champion Paper mill in Bucksport, Maine. It later became 
known as Verso Paper. The last 5 years of my employment there, I worked 
as a calendar operator on #1 paper machine that produced specialty 
grade paper. It was a really good job that paid well, and had great 
health and retirement benefits. I had been at the mill for 27 years 
when, in October 2014, we got word that the mill was going to make an 
announcement. We had already been through a restructure, a redesign, 
and we saw the shutdown of #2 paper machine. Through buyouts and 
attrition, the company managed to keep many of its people employed. 
Since the line I worked on had 9 months of orders to fill, we thought 
it wouldn't be us. But no such luck. The company announced that it 
would be shutting down at the end of the year--right around the 
holidays. I became overwhelmed with anxiety. What would I do for a job? 
This is all I've done for 27 years. Luckily, I was one of the fortunate 
ones to get one of the few remaining bids in the power plant. We were 
told that the demolition company planned on running the power plant for 
at least 2 years, and maybe longer if it proved profitable. Now I had 
time to get things in order and figure out what I wanted to do, should 
they choose to shut it down. Well, what was supposed to be 2 years 
turned out to be just 4 months.
    So here I was, 52-years-old, with my family relying on me, and I 
was out of work like the rest of them. The job market had been flooded 
with hundreds of unemployed mill workers. I live in a small town where 
there are not a whole lot of options for me to just go out and find 
another job that paid as well as the mill. I became very depressed when 
one of my former bosses who had pushed hard for me to go back to 
school, called and said ``Ralph I don't want to be the bearer of any 
more bad news. But don't waste your time going to school because in 
this field they want someone they can vest in for 30 years not ten. I'm 
sorry but I just would have hated to see you do this on my 
recommendation and then not get hired.'' I also had been told that the 
State could only extend benefits for a certain amount of time and going 
to school full time would have been hard on my family financially.
    To make matters worse, my son had been diagnosed with Chronic Lyme 
disease. Now I wasn't only losing my job, I was losing my medical 
insurance as well. At no other time in my life had I needed it more, 
and Cobra insurance was not even remotely affordable at $1,574 a month. 
If not for my severance package, I don't know how we would have managed 
financially, with thousands of dollars a month being spent on 
medications for my son. To lose a job is stressful but to worry about 
the health of your child is even worse. It was just one stressful event 
after another. God bless my wife for remaining positive. I remember her 
saying this many times. ``Honey when one door closes another one 
opens.''
    Before long things started looking up. I spoke to one of the career 
counselors about school and she said ``Ralph, would you be interested 
in an HVAC or fine wood working course at Eastern Maine Community 
College? You don't have to take algebra or any other classes and it 
only lasts for 6 months. You could develop some new skills that may 
help you find a new job.'' As it was, only the fine wood working class 
was available, so I signed up. Still, as great as it sounds, the 
thought of going back to school again after 36 years was intimidating. 
I can't say enough good things about the fine wood working program at 
EMCC. The instructors were phenomenal. Besides teaching, they also 
talked about valuable life experiences and reassured us that businesses 
out there like the older generations' work ethic. This is where I also 
had the chance to meet and talk to some of the younger students. I had 
the privilege of speaking to a very skilled, intelligent young lady. 
She said ``Mr. Jellison, you do know that our classes are on 10-week 
windows of time and we also have a success center where people like me, 
could have tutored you through any difficult classes.'' I said ``If I 
had only known then what I know now. I would have definitely tried the 
electrical course.
    Upon completion of my wood working course, actually the day after I 
graduated. I got hired at the Hinckely Yacht Company in Trenton, Maine. 
I was elated!! My daughter Sabrina surprised me with tickets to a 
concert. I said ``honey you don't have to do this'' and she said ``Dad 
I'm proud of you for going back to school and were gonna celebrate.'' 
Hearing my daughter say she was proud of me meant the world to me. I 
worked at Hinckley until I re-aggravated an old knee injury and had to 
get it operated on. I received short term disability for 12 weeks which 
doesn't pay much. Again, another setback. While I was out, I met a 
former mill employee I used to work with in the power plant. He was 
working for GAC chemical company in Searsport, Maine. I asked him to 
let me know when they were hiring. As it turned out, 3 days later, I 
got a call. I spoke with Ryan and he said ``tell me what you did in the 
mill for the last 27 years. Wow you are versed in a lot of things we 
need here.'' When I got home, I checked my e-mail and I had been 
accepted for employment at GAC. The door my wife had talked about had 
opened. Good pay, good medical insurance and close to home. My prayers 
had been answered.
    My life was turned upside down when I was 52 years old. But this 
opportunity to go back to school has brought me to this point in my 
life. We're back on our feet and I'm providing for my family again. I 
can't tell you how good that makes me feel. As dismal as things looked 
for a while, to where I am now. I only hope my story could be 
inspiration enough for someone else to better themselves after facing 
the same sort of situation that I did.
    Thank you and I would be happy to answer any of your questions.
                               __________
                        Statement of Lisa Motta
           Retrained Human Resources Employee, Pittsburgh, PA
    Chairman Collins, Ranking Member Casey, and Members of the 
Committee, thank you for inviting me here today to testify. It is an 
honor to participate in a discussion on such an important subject.
    My name is Lisa Motta. I am 54 years old and a resident of 
Pittsburgh, Pennsylvania. I am a recruiting administrator at PNC 
Financial Services, where I have worked for the last 3 years.
    Before being hired by PNC, I had been out of the workforce for most 
of the previous 20 years. My first career was as an elementary teacher. 
It was a job I loved, but when my vision began to decline due to 
glaucoma, it became increasingly difficult to go to work every day. 
Eventually I gave up my job as a teacher and chose instead to work 
full-time raising my two wonderful children at home. I knew that I 
wanted to return to work one day, but I didn't know exactly how or when 
it would be possible.
    As my children grew older and my husband and I began to think both 
about their college tuition and trying to put away enough money to 
retire 1 day, I started to plan how I could return to work. Starting a 
second career in your 50's can be a daunting task for anyone, but it 
felt particularly challenging at times due to me now being totally 
blind. I was fortunate to have a partner in my corner who had overcome 
some of the same obstacles I was facing--my husband who is legally 
blind--but it was still difficult to even figure out where to begin.
    To maintain my teaching certification, I enrolled at a nearby 
college, but it was hard to find work in that field. I began looking 
for part-time work and did temporarily find a position doing marketing 
for a local chiropractic business, but that job was eliminated not long 
after.
    One of the most challenging parts of trying to find work was simply 
getting my foot in the door and getting my face in front of someone for 
an interview. Many job applications online are difficult to navigate 
and submit using the screen reading software which enable people with 
visual impairments like me to use computers. Then, when I was able to 
land interviews, it felt like many potential employers would make 
assumptions about my abilities based on my disability the second I 
walked in the door with my guide dog.
    Things turned around though when I applied for a job at PNC, and 
they offered me a job in their human resources department. It was a 
fantastic opportunity and I was ready to run with it, but just before I 
was about to start, my guide dog had to be retired. Fortunately, the 
Pennsylvania Office of Vocational Rehabilitation was able to help me 
identify and learn a public transportation route to work that I could 
navigate with a long cane until my new guide dog arrived. When my dog 
Aspen did make it to Pittsburgh, OVR also helped me pattern her to all 
of my important locations downtown and at home, and they assigned a 
local access-technology vendor to help me figure out how to make my 
accessibility software work with PNC's computer systems. After 
overcoming these initial obstacles, I was finally able to settle in to 
my new full-time job coordinating job interviews with candidates all 
across the country.
    Since then, I have also worked with the wonderful folks at OVR and 
with my supportive managers at PNC to help make PNC a workplace that 
is, as we say, not just ADA-compliant, but ADA-friendly. When our 
entire department moved to a new building early this year, we worked 
together to make the workplace accessible and welcoming to individuals 
with visual disabilities.
    My second career has enabled me to work toward my personal goals 
like saving for retirement, but it has also given me the opportunity to 
advocate for others facing some of the same challenges I did. I know 
how difficult and dispiriting it can be to try and start a new career 
in your 50's. I also know how important services, like those provided 
by OVR, and supportive employers can be to workers with acquired 
disabilities trying to stay on the job or come back into the workforce 
after an absence.
    As America's workforce grows older, more and more workers will face 
challenges like these and will need additional supports and 
accommodations. They will also need laws in place that ensure that when 
they walk into an interview they do not face any form of 
discrimination. When we make it easier for these workers to succeed, 
everyone benefits. I hope I have gotten that message across today.
    Thank you again for the invitation to testify before the Committee, 
and I look forward to answering your questions.
                        Questions for the Record
                             To Lisa Motta
                    From Senator Sheldon Whitehouse
Question:
    In your testimony, you talked about your return to work after 
losing your eyesight from glaucoma. What makes your employer ``ADA-
friendly,'' above and beyond ``ADA-compliant''? What can other 
employers learn from PNC?
    Please contrast PNC's ADA-friendly response with your experience 
outside of PNC. Are there opportunities you are still unable to access 
in other areas, like in healthcare, in technology, in the community?
Answer:
    Thank you for the question. The best way to explain PNC being 
friendly is to take my example of moving Aspen and I to a new 
environment. PNC elevators in that building were enabled with a 
handicap button. When this button was pressed, along with the floor 
number, it allowed the elevators to announce which elevator to board to 
take you to the floor you needed as there are six elevators to use 
which work by weight load. PNC allowed me to work with the elevator 
maintenance staff to ensure the volume of the announcement inside/
outside the elevators was satisfactory to me. This was especially 
important in the lobby area because when the lobby had extra traffic it 
was difficult to hear the announcement. PNC also provided a team of six 
(6) to tour the building while my new floor was under construction to 
ensure Aspen and I would be accommodated in our new building. The six 
included a person from the construction crew, the real estate services 
group, an elevator staff member, the OVR representative, my manager and 
myself. We toured the building to identify anything that may have been 
needed to improve the location for Aspen and I. Several small 
adjustments were made to my work station to make it more comfortable 
for Aspen and myself which were ``friendly'' adjustments but not 
necessary to be ADA compliant, such as enclosing the bottom of my desk 
to ensure Aspen was protected from foot traffic and relocating a 
hanging trash bin on my desk. We also worked on a designated area for 
Aspen to relieve herself during the day. Aspen and I were permitted to 
enter the building as often as needed for training and become 
comfortable in maneuvering the new location and surroundings prior to 
the move.
    Though there are some areas PNC needs to improve, they are 
currently working on an initiative to look at all things through the 
lense of disabilities to keep moving in the ``friendly'' space.
    Other areas you mention such as health care, technology and the 
community, often cause struggles. Some health care workers are unsure 
how to handle persons with vision disabilities. Asking them to fill out 
paperwork with a driver in the waiting room instead of assigning a 
staff member to fill in the paperwork in the privacy of a room is 
surely not compliant. A technology application that is not screen 
reader accessible is often a struggle. There are occasions that I can 
navigate 80 percent of the site but the other 20 percent is not 
accessible. For a screen reader user that makes the entire site 
inaccessible and difficult to place orders for shopping, airfares and 
much more. When I use public transportation and the stops are not 
announced it is not user friendly.
    I am sure persons with other disabilities face struggles each day 
also. There is much room for improvement and I am glad Senator Casey is 
an advocate for the disabled.

        
=======================================================================


                  Additional Statements for the Record

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  

                                  [all]
</pre></body></html>
